No. 19-463

 

In THE
Supreme Court of the Anited States

WILBUR-ELLIS COMPANY LLC,

Petitioner,
v.

UNITED STATES DISTRICT COURT FOR THE EASTERN
DISTRICT OF MISSOURI, ET AL.,

Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
For the Eighth Circuit

REPLY BRIEF

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,440 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 19, 2019.

 

Wilson-Epes Printing Co., Inc.
